This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                        REPORT OF INVESTIGATION

            UNITED STATES SECURITIES AND EXCHANGE 

                         COMMISSION 

                 OFFICE OF INSPECTOR GENERAL 



          Excessive Payment of Living Expenses in Contravention 

           of OPM Guidance for a Headquarters Senior Official 


                                       Case No. OIG-561 



                                             Introduction

         The Office ofInspector General ("OIG") of the Securities and Exchange
Commission ("SEC or Commission") opened this investigation on April 27, 2011,
after receiving a confidential complaint alleging the SEC engaged in wasteful
spending in the hiring of Professor Henry T. C. Hu.! On September 9,2009, Hu was
hired through the Intergovernmental Personnel Act ("IP A") to be the Director of the
newly formed Division of Risk, Strategy, and Financial Innovation located in
                   2
Washington D.C. In addition to the SEC reimbursing the University of Texas
("UT") $314,198.26 for Hu's salary and benefits for the period of September 9,2009
through January 18,2011, the SEC spent approximately $120,000 for Hu's housing,
airfare to and from Austin, and living expenses (including meals) while in
Washington, DC. During those sixteen months, Hu stayed in Washington, DC for the
vast majority of the time including weekends, and the SEC paid for his living
expenses. Although Hu returned to Austin, Texas, infrequently, the SEC also paid for
those travel expenses.

                                    Scope of the Investigation

       In conducting this investigation into the complainant's allegations, the OIG
took sworn, on-the-record testimony of the following individuals:

              (1) Henry Hu, Professor, University of Texas Law School, taken on April
                  28,2011. ("Hu Testimony Tr."). Transcript of Testimony attached as
                  Exhibit 3.

I Professor Henry T. C. Hu holds the Allan Shivers Chair in the Law of Banking and Finance at the
University of Texas Law School. See Exhibit 1.
2 Assignments to or from ... institutions of higher education ... are intended to facilitate cooperation

between the Federal Govermuent and the non-Federal entity through the temporary assignment of
skilled persol1llel. ... See Provisions of the IPA Mobility Program, attached as Exhibit 2, at 1.
This docunI<'nl is s ubj <,cllo Ih<' pru\'isions of Ih<' PI'i\' ac~' ACI uf 1974, a nd nlay r<'quil'<' r<,dllCliun 00(01'<'
disclus ur<' 10 Ihird pllrli<'s.. Nu rl'daclion hlls ix><,n p<'l"fol'lllNI by Ih<' Ollic(' of Insp<'clul' G<,n<,raL
Rt'cipit'nls ofl hi s n'port s hould no l diss<' nlinllh' or copy il wilhuullh<, Inspt'Clor G<'nt'rlll's lIPPI'o\'lIl,


                     r~~7~C)                     I
                (2) 	
                     (OFM), taken on May 23 , 2011. (' (b~7~C)           r
                                        Program Anal Y Office of Financial Management
                                                                 ]Testimony Tr. "),
                     Transcript of Testimony attached as Exhibit 4,

                (3) (~mC)                     Program Speciali st, OFM , taken on June 3, 20 II,
                      ('.L"C-
                           ·';o ' -,-_ p estimony Tr,"). Transcript of Testimony attached as
                              ·'c-
                      Exhibit 5.

                     """",---","-:_ _~-=---=:--, OFM , taken on June 16, 2011.
                      ')--_ _1 estimony Tr. "). Transcript of Testimony attached as Exh ibit
                      6.

                (5) rb~7~C)
                     	                      I
                                     Human Resource Speclailst, 0 lCP. nfHuman
                                                                     (b~7XC)'"'i    .
                      Resources (OHR), taken on June 23 , 20 II . ('             estlm ony Tr. ").
                     Transcript of Testimony attached as Exhibit

           The OlG also interviewed the fo ll owing individuals:

                (1) 	Professor Hu ; September 2, 20 11 . See Memorandum of September 2,
                     2011 Interview ("Hu Interview Memorandum "), attached as Exhib it 8.

                (2) Didem Nisanci , Chief of Staff, Office of the Chairman; September 6,
                    2011. See Memorandum of September 6, 2011 Interview ("Nisanci
                    Interview Memorandum "), attached as Exh ibit 9.

                (3) Mary Schapiro, Chainnan ; September 6, 2011. 	 See Memorandum of
                    September 6, 20 II Interview (" Schapiro Interview Memorandum"),
                    attached as Exhibit 10.

         The OlG attempted to obtain information from Diego Ruiz, the SEC ' s
Executi ve Director who, as discussed below, was primaril y responsible for
developing the tenns of Hu ' s IPA agreement. On May 18, 20 II , the OIG sent an e­
mail to Ruiz, requesting information on Hu ' s hiring. Ruiz fai led to respond to the
OIG ' s request. )

       In addition, the OIG reviewed approximately 85,352 e-mail s of current and
former SEC employees relevant to this matter. The OIG also reviewed other
documents related to this matter, including Hu ' s travel records, in voices from UT,
and several LP A agreements between the SEC and various persons other than Hu.




3   Ruiz resigned from the SEC effective August 1, 2011 .


                                                               2

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                              Relevant Government Regulations

I.       OPM Regulations

         A. The IP A Program

                  [IPA] [a] ssignment agreements can be made for up to two years, and
                  may be intennittent, part-time, or full-time ....

                  Cost-sharing arrangements for mobility assignments are negotiated
                  between the participating organizations. The Federal agency may
                  agree to pay all, some, or none of the costs associated with an
                  assignment. Costs may include basic pay, supplemental pay, fringe
                  benefits, and travel and relocation expenses.



                  A Federal agency may pay the travel expenses authorized under the
                  Federal Travel Regulation (FTR) (41 CFR chapters 301-304) chapter
                  301 of a Federal employee or non-Federal employee on an
                  Intergovernmental Personnel Act assignment. An agency may pay a
                  per diem allowance at the assignment location in accordance with FTR
                  part 301-7, or . . . limited reIocati on expenses . . . .



                  An agency may select between payment of a per diem allowance at the
                  assignment location or the limited relocation expenses, but may not
                  pay both. However, an agency may pay per diem for travel away from
                  the assignment location, even if it pays the limited relocation
                  allowances, so long as the employee does not travel to his/her official
                  station. An agency should consider the cost to the Federal
                  Government to be a maj or factor when detennining whether to pay a
                  per diem allowance at the assignment location or limited relocation
                  allowances. An agency should also consider the duration of the
                  assignment. A per diem allowance is meant for shorter assignments.
                  The payment of per diem for an indeterminate period or a period of
                  more than one year is taxable to an employee, so an agency should not
                  pay a per diem allowance for an assignment expected to last more than
                  one year, or for an indefinite period.

See Exhibit 2 at 3-4.




                                                     3

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

         B. Duty Station

                   .... The official worksite generally is the location where the
                  employee regularly performs his or her duties. If the employee's work
                  involves recurring travel or the employee's work location varies on a
                  recurring basis, the official worksite is the location where the work
                  activities of the employee's position of record are based, as determined
                  by the employing agency, subject to the requirement that the official
                  worksite must be in a locality pay area in which the employee
                  regularly performs work.

See Exhibit 11 at 1.

                  The OPM Guide for Processing Personnel Actions ... is
                  considered by OPM as the best reference for understanding
                  duty station and the location of an employee's work site. For
                  most employees, the work site is the place where the employee
                  "works, or at which the employee's activities are based, as
                  determined by the employing agency;" i.e., "the location of the
                  employee's desk or place where the employee normally
                  performs his or her duties ....

See Revised June 20,2001, GSA Human Resources Management Report on Duty
Station Determinations, attached as Exhibit 12, at 1.

                                   Results of the Investigation

I. 	     In April 2009, the SEC's Chairman Approached Bu about Joining the
         SEC

        On April 10, 2009, Stephen Cohen, then Senior Advisor to the Chairman,
forwarded an op-ed piece written by Hu to Chainnan Mary L. Schapiro and other
senior SEC officials. See April 10, 2009, e-mail.attachedasExhibit13.Hu. s article
discussed how Goldman Sachs's use of credit default swaps in connection with its
loans to AIG had created a distorted incentive by permitting Goldman Sachs to avoid
economic exposure to losses on those loans, while maintaining its rights to call those
loans. Id In his e-mail forwarding the article, Cohen stated, "In light of our
discussion yesterday, I thought this article was particularly poignant. I wanted to
make sure this group saw it. I think it is the kind of thought we are seeking in our
Office of Smart People .... Id. The Chairman responded "This is an excellent
piece" and her Chief of Staff, Didem Nisanci, added, "I thought so too, he is really
widely respected." Id

      According to Hu, sometime in early April 2009, he received a voicemail
message from Chairman Schapiro asking him to return her call. Hu Testimony Tr. at
21. Hu and the Chairman spoke around April 13, 2009 and during that call the


                                                     4

This docunI<'nl is s ubj <,cllo Ih<' pru\'isions of Ih<' PI'i \' ac~' ACI uf 1974, a nd nlay r<'quil'<' r<,dllCliun 00(01'<'
disclus ur<' 10 Ihird pllrli<'s.. Nu rl'daclion hlls ix><,n p<'l"fol'lllNI by Ih<' Ollic(' of Ins p<'clul' G<,n<,raL
Rt'cipit'nls ofl hi s n ' port s hould no l diss<'nlinllh' or copy il wilhuullh<, Inspt'Clor G<'nt'rlll's lIPPI'o\'lIl,

Chainnan asked Hu ifhe would li ke to head up a new unit that colloqui ally was
known as "OSP" or "Office of Smart Peopl e," and explained that one of the areas that
                                  4
the unit would focus on was ri sk. Id. at 25-26,

H. 	       The SEC Offered Hu an Unprecedented Financial Arrangement to Join
           the Commission

        On May 11 , 2009, approxim ately one month after Hu 's initial conversati on
with Chainnan Schapiro, Diego Rui z, then the Executive Director of the SEC,5 sent
an e-mail , to Nisanci stating "Concerning Henry Hu, there are a lot of questions on
the relocation/ housing issue that I don' t have an answer for yet. I will get you an
anal ysis of the issues and a recommendation on the best wa~ forward tomorrow,"
Ex hibiLL~lli z enli ste 1(~~1~C)                             OFM to help wi th those
issues.  1""'''£ • 	
              -y estimony Tr. at 12, 14, According t o(b~ ~C) Ruiz wanted to know  '
what typer~htt~i1 bursement was avai lable for relocati on purposes. Id. at 14. On May
12,2009,           e-mailed Rui z the followi ng answers to questions Ruiz had posed:

                      Can the SEC pay for th e temporary quarters of a newly
                      hired employee?

                                  Generally NO.

                      Under what circumstances can the SEC pay for a newly
                      hired empl oyee's lodging?

                                  [- Under a relocation agreement alld Dilly for a
                                 limiled period oflime ,

                                 2- Under extended travel wi th the following
                                 assumpti ons:

                                  Assumptions:

                                 FIE permallel1l dlfly slalion is Regional Office

                                 Frequent or extended travel required from Region to
                                 Wa shington DC Headquarters and temporary or
                                 extended lodgi ng is required

See May 12, 2009 e-mail , attached as Ex hibit IS, (emphasis added),



4 The new unit was ultimately called the Di"ision of Risk , Strategy, and Financia]lllllovation Hu 

Testimony Tr. at 23, 

5 As discussed above, Ruiz failed to respond to the OIG ' s request for information relaled to Hu' s 

hiring. 



                                                                5

This d oc lun(" nl is s ubj ect 10 Ihe pr'u\'isions o f Ihe PI'j"IICY Ac t of 19' -1, and 11111)' rffJoil'l' ,'rdllclion OOfo l'(,
disclosu.,l' to third pa r ties, Nu I'i'd llc lion has b(>t n p"'rform t"d by Ih l' OfficI."  or111SI)('C101' Gtl1tral.
R('ci pi("nls of thi s ''('PO'" sho uld nol disst' minut l' or copy it II' jlllou! lh(' Ins p«lor Gl'l1l'rlll's IIppl"OI' II I.
                ,                   ,\O'X7)(C)
           RUl z then askeOjLc-~j
SEC could p.y for             H u ' s,.!I!.J
                                         i vin!"-,,,,","'t'
                                            ~
Testim ony Tf. at 18- 19; DlI7XC)       estim ony Tf. at 13- 15. They responded by   ! -:-----'
suggesting (hal the SEC efinelils assignment location (or dUly station) as Austin,
Texas-3.fidJreat hi s travel to Washington DC as temporary duty travel ("TDY'').
See (DK1l1c)      estim ony Tf. at 16- 17 DlI7Xc)       eSlifi ed that she told Ruiz:

                       We could put him on what ' s considered long-term TOY.
                       And for the days that he is officially in Washington, D.C. ,
                       even th ough hi s official duty station would read Austin ,
                       Texas because that's where his home is ; that 's where the
                       Uni versity of Texas is -- he could come on a travel order to
                       Washington, D.C. We would pay for hi s per diem , hi s
                       hotel, or he could rent an apartment, and I believe that' s
                       what he did . He rented like one of those 10ng-tell1l stay
                       pl aces. And we would pay meal s, and we could pay hi s per
                       di em up to the per diem rate for the time he was here. That
                       was an option .

Id. • • 16- 17.

       On May 18, 2009, Ruiz sent Nisanci a memorand um describ ing two
mechani sms fo r bringing Hu to the SEC: (J) joining as a federal employee or (2)
pursuant to an I.PA agreement. See May 18, 2009 Memorandum from Diego Ruiz to
Didem Nisanci (the " Rui z Memorandum "), attached as Exh ibit 16. In explai ning the
two options, Ruiz described the IPA opti on as "the chi ef way in whi ch we hire
academics fo r short tenn s." Id. With respect to the agency ' s handling of relocati on
expenses under an IPA agreement, Ruiz provided the Chairman ' s Office and Hu with
information about onl y one way to reimburse Hu for those ex penses:

                       The SEC may rei mburse Professor Hu, up to the federal
                       government per diem rates, for travel and lodging expenses
                       incurred while at hi s assignment location (Washi ngton, DC).
                       The per diem rates for lodging in Washington currentl y is
                       between $229 and $273 dail y, dependin g on the month of the
                       year. Profe ssor Hu woul d be eli gible for reimbursement at the
                       dai ly rates onl y for those days in whi ch he was in Washington .
                       Th e payment of a per diem for a period of more than one year
                       is taxable to an employee, .

Id.

        With respect to the agency' s handling of relocation ex penses if Hu were hi red
as a federal em pl oyee, Rui z informed the Chairnlan's Offi ce and Hu that, " As a
federal empl oyee, Professor Hu could be eli gible for reimbursement of his relocati on
costs up.o $9,000." Id.


                                                                  6

 T his d oc unI<' nl is s ubj<,cllo Ih<' pru\'is io ns of Ih <' PI'i \' ac~' AC I uf 1974, a nd nl ay r<'q uil'<' r<,d llCl iun 00(01'<' 

 disclus ur<' 10 Ihird pll rli<'s.. Nu rl'd acl io n hlls ix><, n p<'l"fo l'lll NI by Ih<' O llic(' of Ins p<'clul' G<, n<,ra L 

 Rt'c ipi t' nls of lhis n ' po rt s ho ul d no l diss<' nlinllh' or copy il w ilhu ul l h<, Inspt'Clo r G<' nt' r ll l's lI Ppl'o\·lI l. 




         The Ruiz Memorandum contained a misimpression that a per diem 

 arrangement was the only way to reim burse Hu for relocating to SEC Headquarters in 

 Washington, DC. Id. The federal travel regulations allow an agency entering into an 

 rPA agreement to offer the recipient ei ther "limited relocation expenses" or a per 

 diem allowance for living expenses during the period of the assignment. See Ex hi bit 

 2 at 4-5. " An agency may select between payment ofa per diem all owance at the 

 assignment location or the lim ited relocation ex penses, but may not pay both." Id. 


         According to OPM, when decidi ng whether to offer an rPA candidate lim ited 

 relocation expenses or a per diem all owance fo r li ving expenses during the peri od of 

 the assignment: 


                          An agency should consider the cost to the Federal
                          Government to be a major facto r when determining
                          whether to pay a per diem all owance at the assignment
                          locati on or lim ited relocation allowances. An agency
                          should also consider the duration of the assignment. A per
                          diem all owance is meant for shorter assignments. The
                          payment of per diem for an indetenn inate peri od or a
                          period of more than one year is taxable to an employee, so
                          an agency should not pay a per diem all owance for an
                          assignment expected to last more than one year, or for an
                          indetinite period.

 Id

                   Consistent with OPM 's guidance, SEC policy had been to cap the " li mited
  relocation expenses" referenced in the federa l travel regulations at $9,000. See e-mail
  dated Apri l 3, 2002 from I(Dx7XCJ                     Ito Jayne Seidman rega rding rPA moving
  ex enses attached as Exhib it 17. Pri or to Hu ' s arrangement, according tol,'='',,',,            ''='.,,_ _-.J
      7
 (DX XC)                 OFM Program Analyst, the SEC had on ly offered IPA candidates up to
  $9,000 for relocatior:neD              CJ seJas part of its IPA arrangements' F''''
                                    (DK7 X                                           _             .restimony
  Tf. at 26, 36-37, 61.                         estified that "No rPA person has ever gotten [the 

  temporar uarters per lem a owance] as long as I've been doing relocation." Id. at 

                    7
  36-37 (DX XC)                   tated that the SEC's standard rPA agreement included a provision 

  statin that the SEC will pay up to $9,000.00 for relocation expenses. Id. at 26, 

~i7KC )                 .
L
L
                        '           Program Specialist, OFM, also confirmed that the SEC's practice
  'iin';c"o)iniini<e~tlRikiiilllidJ~
                    c)j0"--"'
                      (DX7XCj
                                         agreements
                                            •
                                                     was                         for travel relocation
  expenses                               estlmony Tr. at 21                   Human Resource 

  Specialist, OHR, who helped fina lize Hu ' s                   contract testi fi ed si milarl y, that every 

  rPA ac[eernen
              '- (DK1Kc)
                              she had seen at the SEC only offered the $9,000 relocation expense 

  optio                        esti mony Tf. at 32-33 .

 6 1(DX1XC)                         ~ as be'cn rcspoOS\·bt e C          .
                                                             lor processmg Irave t vouehers, approvmg
                                                                                                   . 

 travc\ Q[d.ers t avel reimbursements. and counseling individuals who are relocating for (I position at the 

 SEC. (DX7XC)       cSlimony Tf. at 6-7 . 




                                                                       7

This docunI<'nl is s ubj <,cllo Ih<' pru\'isions of Ih<' PI'i\' ac~' ACI uf 1974, a nd nlay r<'quil'<' r<,dllCliun 00(01'<'
disclus ur<' 10 Ihird pllrli<'s.. Nu rl'daclion hlls ix><,n p<'l"fol'lllNI by Ih<' Ollic(' of Insp<'clul' G<,n<,raL
Rt'cipit'nls ofl hi s n'port s hould no l diss<' nlinllh' or copy il wilhuullh<, Inspt'Clor G<'nt'rlll's lIPpl'o\·lIl.



        The OlG reviewed a sample of the SEC ' s LPA agreements from 2003-2011.
See Exh ibits 18-26. All of those agreements included the provision paying relocation
expenses up to $9,000. Id. For example, the most recent SEC [PA agreement,
effective June 2 1, 20 11 , stated:

                      (The IPA recipient) wi ll be entitled to relocation travel
                      fund s as provided in the Federal Travel Regulations,
                      through reimbursement directly to him . Moving expenses
                      wi ll be paid up to the maximum rate of $9,000 each way,
                      for moving expenses related to initial move to the
                      Washington , DC metropolitan area and return to the (IPA
                      recipient ' s current location].

See Exh ibit 26.

        On May 26, 2009, Nisanci offered Hu the option of joining as a federal
employee or pursuant to an [PA agreement, and described those two options to Hu by
sending him the Ruiz Memorandum. See May 26, 2009 e-mail from Didem Nisanci
to Henry Hu, attached as Exhibit 27. Nisanci told the OIG that her understanding
from Ruiz was that his description of the LPA option in the Ruiz Memorandum was
consistent with the LPA arrangements that the SEC had offered other individuals. See
Nisanci Intetview Memorandum .
                                      (bX   c)
       On May 29, 2009            -mailed Ruiz the foll owing answers to more
questions that Ruiz had p·:o:C=~-
                            se

                      Can the govt pay for his Austin to DC air fare?
                                                              ,j< bX1XC)                     l
                                 Yes (confirmed witrljL_ _ _ _ _ _---l?

                      Is there a limit on number of trips?

                                 No limit as long as it is officiall y necessary because
                                 he is NOT relocating.

                      Does this have to be defined in the the [sic] agreement?

                      Yes, and the agreement must specify that Professor HU
                      (sic] wi ll be working out of Huston [sic) (or wherever his
                      home is and wi ll be commuting to DC as officially
                      necessary, even ifit is, weekly, month ly, etc.).

See May 29, 2009 e-mail , attached as Exhibi t 28.




                                                               8

This docunI<'nl is s ubj <,cllo Ih<' pru\'isions of Ih<' PI'i \' ac~' ACI uf 1974, a nd nlay r<'quil'<' r<,dllCliun 00(01'<'
disclus ur<' 10 Ihird pllrli<'s.. Nu rl'daclion hlls ix><,n p<'l"fol'lllNI by Ih<' Ollic(' of Ins p<'clul' G<,n<,raL
Rt'cipit'nls ofl hi s n ' port s hould no l diss<'nlinllh' or copy il wilhuullh<, Inspt'Clor G<'nt'rlll's lIPpl'o\·lIl.

        On June 5, 2009, Hu chose to join the SEC pursuant to an IPA arrangement as
that arrangement had been described and offered to him in the Rui z Memorandum.
See Hu Interview Memorandum. Hu stated that he did not negotiate the terms af that
arrangement with the SEC 7 Id According to Hu, he simpl y accepted the ofTer that
was presented to him as "the chief way in which [the SEC] hire[d] academics. " Id
Hu acknowledged that he chose the IPA option, in part, because it was more lucrati ve
irrespective of any differences in how his rel ocation expenses would be handled .8 Hu
Testimony Tf. at 34.

HI. 	          Staff from the SEC's Office of Financial Management Working on Hu 's
               IPA Expressed Concern About the Agreement to Pay Hu 's Living
               Ex penses
                              L                                                                   l(b X1 XC)       I

b
    :~~~:~ll::::i;~J that she was concern ed and upset when
              to reimburse Hr\;fr~cif_b Jere on "extended TOY trave!."
                                                                       told her
                           [ Tf. at 38-39.             estified that she expressed concern to
                   the appropriateness 0 -the arrangement and discomfort at aQ roving the
                                                                                 (bX7XC)
           vouchers pursuant to the arrangement. Id at 37. In respon se                    Ld
                 Oh It . 	 We have nothmg to WOr.L'LaLillUL};
 " I' I I deal wit       0	                      0     c_        d'- Lf'\'. ay 29, 2009 (bX1XC) e-
       ,	      ,                                f(bX7xC)                                 •
 maded RUl z, "As a note, I already alerted 	                               and she WIll be
 making sure that Professor Hu 's travel vouc ers will not encounter any prob lem ."
 See May 29, 2009 e-m ail attached as Exhib it 23.
           rb~7XC)   ~
               ckn !Wled.
                     7
of the arrangement bX XC)         .
                               estlmony  Tr. at 16                     Fifer
                          !Zed that she and RUl z had some reservations about the cost
                                                           xplamed, "There was a lot        '
t   bX1X
      C)       ~ecalled a COI1\'ersation with Hu that occuLTed sometime in May 2009 during which she
stated that he could not be reimbursed by the SEC frr.hi-~       "     fUry lodging expen. and..co.uld only
      Ob urscdlor
be relm            erel ocallon
                             0
                                  expenses up to $9,(){)() (bX7XC)     "
                                                                        eS!lmony '10 r. at 33 . (bX7XC) lestl'1 Ie d
                                                                                                        I      00


that she had not seen an IPA agreement for Hu when she had this conven;ation, but that her statement
to Hu was based on the relocation                         I that she had scen in every other SEC IPA
agreement. Jd. at 32.              I )                   responded, " I wasn 't told that I only get $9,000" and
"he sllid that he was going to go                      [the former Associate Executive Director for the
Office of Human csourcc.s_." Jd. at 36-37 . Hu told the OIG that he did not recall having had such a
conversation with (bX7XC)          r anyone lit the SEC. See Hu Interview Memorandulll. However. he also
told thc OIG thal if such a eonvcrsation took place, he would have brought it to somconc 's attention
that the infonnation was contrary to the terms of the offer that had been made to him as described in
the Ruiz Mcmorandum. Jd. Nisanci told the OIG that she had ncyer heard that Hu hlld blliked at what
he was offered regarding his travel and li"ing expenscs. See Nisanci Interview Memorandum.
Similarly , Chaim13n Schapiro told the OIG that she did not recall ever hearing that thcre wcre any
problems with what Hu WllS offered or that he had balked at what was offered. See Schapiro Interview
Memorandum_
s According to the Ruiz Memorandum, the maximum annual salary Hu could have receivt.>d as a
federal employee was $227,300. See Exhibit lG. Under the IPA agreement that the SEC ol1'ered, Hu
kept his UT S<1lary of $307,G il Hu Testimony Tr at 34_ The SEC reimbursed UT $226,905 fo r part
of his salary and benefits for fiscal year 2009, and $87,293 .26 for the period of September I, 2010
through JanuaJY 18, 20 11 See invoices attached as Exhibit 29_ In addition, the SEC paid Hu's living
expenses and airfare to and from Austin for Ihe IG monlh pt.-riod. Consequently. Hu received a tOlal of
$120,279.64 for travel related expenses during that period. See travel records attached as Exhibit 30.
In lotal , the SEC paid $434,470.62 for Hu's services.


                                                               9

This docunI<'nl is s ubj <,cllo Ih<' pru\'isions of Ih<' PI'i\' ac~' ACI uf 1974, a nd nlay r<'quil'<' r<,dllCliun 00(01'<'
disclus ur<' 10 Ihird pllrli<'s.. Nu rl'daclion hlls ix><,n p<'l"fol'lllNI by Ih<' Ollic(' of Insp<'clul' G<,n<,raL
Rt'cipit'nls ofl hi s n'port s hould no l diss<' nlinllh' or copy il wilhuullh<, Inspt'Clor G<'nt'rlll's lIPpl'o\·lIl.

of question about the financial impact in being able to meet the -- I don 't know if I
want to say w hat Mr. H u was WI>11>mg to, you k now, to do." I,'d. (~X7XC)ltestl'fiIed that
the arrangement fo r liu "troubled me as a taxpayer. " Id. at 26. (bX7XC)            estified
that when she andExc~old Ruiz about the TOY option, they told him that it would
be very expensive and they "cautioned against using that option because it could be
extremely expen iv_e~ere to stay three and four weeks at
         > h' ,, (OX 7XC)         .                        d»
reI ocatmg
       •
            1m .               estlmony Tr'jW;~(bX7 XC)
                                                             mg                    .
                                                                                      Ruiz
"took It under a vlsement and responded t                  ,hat "he was
                                                                  j                I     with
the Chainnan and Didem and so on about the best method to get him here because
evidently he had great knowledge that we needed. " Id. at 16-17 .

        However, Nisanci told the DIG that she did not recall Ruiz discussing the
TDY option and the staff's reservations about that option with her. See Nisanci
Interview Memorandum. Nisanci also did not recall Ruiz ever speaking 10 her
generally about the cost of the arrangement and the potential for that cost to be
excessive. Id. Moreover, Nisanci told the OIG that she was never told that the Hu
arrangement was "out of ordinary." Id. Her understanding was that Ruiz was
developing an IPA for Hu that was fu ll y consistent with all appli cab le policies and
guidance. Id. Nisanci told the DIG that she would never have supported an
arrangement with Hu that was not consistent with those policies and guidance. Id.

         Sim ilarl y, Chainnan Schapiro told the DIG that she had understood that the
IPA arrangement that Ruiz developed for Hu was similar to all of the other [PA
agreements the SEC had utilized in the past See Schapiro Interview Memorandum.
She also did not recall ever having been told that Hu 's IPA arrangement was unusual
or that it could be excessively costly. Id.
                                                   X7X
       In fact , Ruiz suggested td(b c) In a May 13 , 2009 e-mail including a cap of
$25,000 on the amount of travel expenses the SEC would pay in Hu 's [PA agreement:

                      The IPA would state that Professor Hu would be all owed 10
                      telework, as per SEC policy, but that he would be expected
                      10 travel 10 and be present at headquarters for extended
                      periods of time over the tenn of the agreement. This will
                      enable the agency to reimburse him according to federal
                      government per diem rates for his travel and living
                      expenses, including lodging expenses, whil e on official
                      travel. I would recommend specifying in the IPA a limit on
                      lodging reimbursement of approximately $25,000.
                                                                      7
See May 13 , 2009 email from Diego Ruiz tq(OXxC)                                      I attached as Exhibit 3 1.
However, we found no evidence that the concept of capping his lodging expenses was
ever presented 10 Hu and no such cap was included in his IPA agreement See Hu
Testimony Tr, at 3 1-33; Hu ' s IPA Agreement dated August 28, 2009, attached as
Exh ibit 32.




                                                               10 

 This docunI<'nl is s ubj <,cllo Ih<' pru\'isions of Ih<' PI'i\' ac~' ACI uf 1974, a nd nlay r<'quil'<' r<,dllCliun 00(01'<'
 disclus ur<' 10 Ihird pllrli<'s.. Nu rl'daclion hlls ix><,n p<'l"fol'lllNI by Ih<' Ollic(' of Insp<'clul' G<,n<,raL 

 Rt'cipit'nls ofl hi s n'port s hould no l diss<' nlinllh' or copy il wilhuullh<, Inspt'Clor G<'nt'rlll's lIPpl'o\·lIl. 


  IV. 	     Ruiz Ignored his Staff's Concerns and Offered Hu a Contract that was
            Excessive and Contrary to OPM Guidance and SEC Practice

             In latf JUl v. 2~09, Ruiz asked (b~7~C)           OHR S ecial ist, to prepare Hu 's
   rPA cont ract (b~7~C)      estimony Tr. at 8, 28. Initiall (bX1 XC)     rovided Ruiz with the
   standard IPA agreement that included the $9r,o.O.o-c.ao.-O          ocation expenses. Jd. at
   16-17; seeaso  I                     e-mal'1 f rom,l(bX7XC)          I     ffi      . .
                                                                         ~oJe rey Rlstnger,

(bX1KC)tached as Exhibit                       that Ruiz told her
                                                                •
                                                                     to remove
                                                                          •
                                                                                  that provision. 9
                          24;:;sS;'w~:~~:~;t~)~t~hat RUlz explatned to her that Hu ' s
 duty station was Austin, 1                          D.C. , and that accordingly he was
 entitled to get reimbursed for all of his travel expenses wh il e working in Washington,
 D.C. Id. at 28-29.

        As discussed above, offering Hu a per diem arrangement, instead of the
 $9,000 relocation all owance, was unprecedented at the SEC. It was also contrary to
 OPM guidance regarding rPA agreements that:

                       An agency should consider the cost to the Federal Govern ment
                       to be a major factor when determining whether to pay a per
                       diem allowance at the assignm ent location or limited relocation
                       allowances. An agency should also consider the duration of
                       the assignment. A per diem allowance is meant fo r shorter
                       assignments.

 See Ex hibit 2 at 4. The arrangement to pay Hu ' s living expenses was not short-term
 as OPM guidance indicates such arrangements should be. The SEC initially arranged
 to pay those expenses for one year and, as discussed below, renewed the arrangement
 for a second year. Moreover, the SEC offered to pay Hu 's living expenses without
 considering as a major factor the cost to the Federal Government. The offer did not
 include a cap on how much the SEC would pay for Hu ' s li ving expenses and was
 made despite the staff's express concerns that the arrangement was too costly. As
 those costs mounted, no effort was made to renegotiate the arrangement with Hu,
 even when his IPA agreement was renewed for a second year.

          Similarl y, defining Hu ' s assignment location as Austin, Texas, so that he
 could receive a travel per diem every day that h {~*~ Washington, DC, including
 weekends, was questionable. On May 12, 2009,                 ad e-m ailed Ruiz the
 fo ll owing answer to a question Ruiz had posed: '------'

                       Under what circumstances can the SEC pay for a newly
                       hired employee's lodging?




 9(bK7XC)
    ;;;=.f.'""f,ifi!i,,x\
     I                 llhal it was unusual for the Exccutivc Director to be involvcd in preparing an IPA
 contract. (bX1XC) 	 cstimony Tr. at 46.


                                                                II 

T his d oc unI<' nl is s ubj<,cllo Ih<' pru\'is io ns of Ih <' PI'i \' ac~' AC I uf 1974, a nd nl ay r<'q uil'<' r<,d llCl iun 00(01'<'
disclus ur<' 10 Ihird pll rli<' s.. Nu rl'd acl io n hlls ix><, n p<'l"fo l'lll NI by Ih<' O llic(' of Ins p<'clul' G<, n<,ra L
Rt'c ipi t' nls of lhis n ' po rt s ho ul d no l diss<' nlinllh' or copy il w ilhu ul l h<, Ins pt'Clo r G<' nt' r ll l's lI Ppl'o\·lI l.

                                     2. Under extended travel with the following
                                     assumptions:

                                     Assumpti ons:

                                     F'lE permanent dilly slation is Regional Office

                                     Frequent or extended travel requ ired from Region to
                                     Washington DC Headquarters and temporary or
                                     extended lodging is required .

See Exhi bit 15 (em phasis added) .

        OPM defi nes TOY travel as "duty at a locati on(s) other than the permanent
duty station ." See Part 300-3 Glossary of Term s, attached as Exhibi t 34, at 2. A Jun e
20,200 1 report by the General Services Admin istration ("GSA") stated :

                        The OPM Guide for Processing Personn el Actions ... is
                        considered by OPM as the best reference for understanding
                        duty station and the locati on of an employee's work site. For
                        most employees, the work site is th e place where the employee
                        "works, or at which the employee 's acti vities are based, as
                        determi ned by the employing agency;" i.e., "the location of the
                        employee 's desk or place where the empl oyee normall y
                        perform s hi s or her duties.

See Exhi bit 12 at 1. The same GSA repon distingui shed a temporary change in duty
station from " a TOY assignment of up to 6 months in whi ch per di em is paid." Jd.

         On September 9, 2009, Hu 's LPA agreement beca me effective. See Exhibit
32. That agreement was for a one-year term from September 9, 2009 to August 3 1,
2010. Jd. Pursuant to that agreement, the SEC agreed to reimburse the un ivers ity
$23 9, 287 for a portion of hi s UT sal ary and benefits. Id Before the end of Hu 's
2009 LPA contract, he and the SEC agreed to sign another lPA contract extending hi s
tenure by another year. 10 See Ex hib it 35. That agreement was for a one-year term
from September I, 20 I 0 to August 31 , 20 II . Jd. Pursuant to that agreement, th e SEC
agreed to reimburse the university $246, 133 for a portion of his UT salary and
benefits. On December 6, 20 10, Hu notified UT and th e SEC that he was terminating
the 20 10 ~p ~ contract as of Januarv 18. 20 II . See December 6, 2010, e-mai l from
Hu td(bK7KC)                                 IFi nancial Affairs, UT School of Law, and
copied to Associate Executive Director, Jeff Risinger, OHR, attached as Ex hi bi t 37.

10 Hu's second IPA oontract was not fully executed until October 13,2010. See December 20, 2010
memorandum Request for Equitable Relief (Ratification/Quantulll MelUit) -- Hem'\' Hu frOIll R isingcr
attached as Exhibit 36. However, the SEC had execl1lt:d thc contract on August 25, 2010, and Htl
continued working for the SEC continuously during the interim and was compensated for that \wrk at
the Mme tenns of the 2010 IrA contract. Jd.


                                                                      12
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        The OIG found that from September 9,2009 though January 18,2011, the
SEC reimbursed Hu for over $120,000 in travel-related expenses, including his
lodging and meals on weekends while he was in DC. ll See Exhibit 30. The OIG also
found that for most of that period, Hu lived in Washington, DC. Id In fact, during
the period of September 2009 through April 30, 2010, Hu flew to Austin onjust three
occasions. Id. Notably, Hu flew back to Austin a total ofjust 17 times for the period
of September 2009 through January 2011 at the SEC's expense of approximately
$12,400.00. ld. Hu lived in DC (and was reimbursed by the SEC for his lodging and
meals) 399 days of the 496 days that Hu was associated with the SEC with his duty
station in Austin, Texas. ld.

                                              Conclusion

       The OIG found that the SEC's arrangement with Hu was contrary to OPM
guidance and SEC practice based on that guidance regarding IPA agreements. The
unprecedented arrangement to pay for Hu's living expenses while working in
Washington, DC, the actual location of his office, ultimately cost the SEC
approximately $100,000 more than would have been ifit had followed OPM
guidance and SEC practice.

        The OIG found that the SEC's former Executive Director, Diego Ruiz, was
the person primarily responsible for the unprecedented offer to pay Hu's living
expenses during the term of his IPA agreement with the SEC. Since Ruiz has
resigned from the agency, we are not making a disciplinary recommendation as a
result of this matter.

        However, we do recommend that the Chief Operating Officer develop
guidelines regarding IPA agreements that: (1) mandate that duty stations be located
where there is an SEC office; (2) defines the circumstances when a per diem
arrangement similar to Hu's may be offered; and (3) establishes limits on the duration
of per diem travel arrangements.



11 Less than one month after he left the SEC. Hu lamented to the press that the SEC was hindered by a
lack of adequate funding for official travel. See Don't Count On the SEC, Barrons, February 5, 2011,
attached as Exhibit 38. Barrons reported the following:

                  According to Henry Hu, until recently the director of the SEC's
                  Division of Risk, Strategy and Financial Innovation, his thin travel
                  budget wouldn't let his Washington, D.C, employees take the train to
                  Wall Street. The budget problems also preclude experts from his
                  division, some of them Ph.D mathematicians and economists with Wall
                  Street experience, from accompanying less-experienced examiners on
                  visits to hedge funds and other firms that deal with complex financial
                  products.

!d.


                                                    13 

 •      This docu ment is subject 10 the provisions of Ihe Princy Ac t of 1974, and may require redaction before




 •
        disclosure 10 thi rd parties. No redaction has been performed by the Office of Inspector Ge nenL
        Recipients of Ihis report should not di55cminate or copy it without the Inspector General's approval.

              The OIG is providing copies of this report to the Chief Operating Officer, 




 •
     Deputy Chief of Staff, Offi ce of the Chainnan, Commissioner Elisse Walter,
        Commissioner Luis Aguilar, Commissioner Troy Paredes, and the General Counsel. 12




 •                     ['~'"
 •
     Submitted:                                               [Date:     1/7/"


 •
                  DX7)(C)




                                                                            9/7 /.2411
 •

        Concur:                                                   Date:




 •
     Approved         U/ W C
                        tUidKOlZ
                                                                 Date:
                                                                             (/ 7{ 1/


 •
•
•.. 

•

        12 During the course oflhis investigation, the OIG investigated complaints regarding the amount of
        travel expenses related to the fact that the Director and Deputy Director of the SEC's Office of




•
      Compliance Inspections and Examinations (OClE), which is headquartered in Washington, DC, live in
        the New York City area, trave l regularly to SEC headquarters, and are reimbursed for that traveL.
        When they were hired for their respective positions, the SEC made the SEC's New York City Regional




•

        Office the official d uty station for Carlo di Florio. the OClE Director, and Nonnan Champ, the OC IE
        Deputy Director. However, unlike Hu, their official du ty station is an SEC regional office and they do
        work out oftha! office when they are not working in Washington, DC. The DIG found that di Florio
        was reimbursed 145.688.09 (or the period of January 25, 2010 through July 11 ,20 11 , and Champ was




•

        reimbursed SI3,329.92 for the period of August 24, 20 10 through July 11 ,2011 . See spreadsheet with
        attached expense reports at Exhibit 39.




•
                                                          14
